U.S. Department of Justice

Office of the Solicitor General
Washington, D.C. 20530

April 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Ng Lap Seng v. United States of America,
S.Ct.No. 19-1145

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 16,
2020, and placed on the docket on March 18, 2020. The government's response is due on April
17, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 18, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-1145
SENG, NG LAP
USA

PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM

